FILED
United States Court of Appeals
Tenth Circuit
March 16, 2020
UNITED STATES COURT OF APPEALS
Christopher M. Wolpert
TENTH CIRCUIT
Clerk of Court

RODNEY A. SMITH,
Plaintiff - Appellant,
v.
SUSAN BARKER; JERRY ROARK;
NANETTE THOMAS; SHAWN A
GONZALES; DIANNA MILENSKI;
STEVEN SALAZAR; MARSHALL
GRIFFITH; PPMU MR. COOK;
SANDRA BROWN; ANTHONY A.
DECESARO,

No. 19-1469
(D.C.No. 1-19-CV-02340-LTB-GPG)
(D. Colo.)

Defendants - Appellees.

ORDER AND JUDGMENT*

Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.

After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination

‘This order and judgment is not binding precedent except under the
doctrines of law of the case, res judicata, and collateral estoppel. It may be cited,
however, for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th
Cir. R. 32.1.

A pp<2-X1 /A-

of this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is
therefore ordered submitted without oral argument.
Rodney A. Smith appeals from an order of the United States District Court
for the District of Colorado. The district court dismissed Smith’s civil rights
complaint as legally frivolous pursuant to the provisions of 28 U.S.C. § 1915(e).
Exercising jurisdiction pursuant to 28 U.S.C. § 1291, this court affirms.
Smith filed a 42 U.S.C. §§ 1981 and 1983 civil rights complaint in the
District of Colorado, which named as defendants various officials and employees
of the Colorado Department of Corrections. The complaint alleged the defendants
(1) violated his constitutional right of access to the court by denying him copies
of certain Louisiana statutes he wished to attach to state-court pleadings; and
(2) interfered with his “contractual right” to receive copies of those same statutes.
In response, the district court filed an “Order Directing Plaintiff to File Amended
Complaint.” The district court’s order identified, inter alia, the following
deficiency in Smith’s complaint: the failure of the complaint to allege specific
facts that demonstrated an actual injury to his ability to pursue a nonfrivolous
legal claim. See Lewis v. Casey, 518 U.S. 343, 349-55 (1996). After Smith filed
an amended complaint, the matter was referred to a magistrate judge for initial
screening and preparation of a report and recommendation. 28 U.S.C.
§ 636(b)(1)(B). The magistrate judge recommended that Smith’s complaint.be

-2-

dismissed as legally frivolous pursuant to the provisions of § 1915(e)(2)(B)(i). In
that regard, the magistrate judge noted as follows with regard to Smith’s accessto-the-courts claim:
Despite the specific instructions provided to Mr. Smith, he
fails to allege facts that demonstrate he suffered any actual injury as
a result of being denied copies of the Louisiana statutes he sought to
include as exhibits with his opening brief. More specifically, Mr.
Smith fails to describe the underlying cause of action that allegedly
was lost in order to demonstrate the claim is not frivolous. His
vague and conclusory assertions that his current Colorado sentence
was enhanced by prior State of Louisiana convictions and that he
wanted to submit copies of the Louisiana statutes with his opening
brief are not sufficient to demonstrate actual injury. Even if the
Court assumes Mr. Smith needed copies of the statutes to formulate a
claim in his opening brief, the access to the courts claim still lacks
merit because he does not allege facts describing a nonfrivolous
claim. See Gee v. Pacheco, 627 F.3d 1178, 1191 (10th Cir. 2010)
(prisoner’s allegations that he was unable to research and prepare
initial pleadings were too conclusory to present a plausible claim for
denial of access to the courts). As a result, the Court finds that the
access to the courts claim is legally frivolous.
Report & Recommendation at 5 (citation omitted). As to the § 1981 claim, the
magistrate judge recognized Smith failed to identify any support for the
conclusory assertion that he had a contractual right to obtain copies of the
Louisiana statutes. Upon de novo review, the district court adopted the
magistrate judge’s report and recommendation and dismissed Smith’s complaint
with prejudice.
This court reviews de novo the district court dismissal of Smith’s complaint
as legally frivolous. Fogle v. Pierson, 435 F.3d 1252, 1259 (10th Cir. 2006).
-3-

Upon de novo review, we affirm the district court for substantially those reasons
set out in the magistrate judge’s report and recommendation, dated June 7, 2016,
and the district court’s order, dated November 4, 2019. In addition, this court
notes that Smith’s reliance on Petrick v. Maynard, 11 F.3d 991 (10th Cir. 1993),
is misplaced. In Petrick, the prisoner complaint at issue contained enough
information to discern the possibility of a nonfrivolous attack on out-of-state
sentences used to enhance the prisoner’s Oklahoma sentence. Smith’s amended
complaint, on the other hand, contains absolutely no information about the nature,
or potential timeliness, of the anticipated collateral attack on his Louisiana
convictions. There is nothing in Petrick indicating that the mere assertion a
prisoner wants to collaterally attack an out-of-state sentence used to enhance a
current sentence is sufficient, standing alone, to satisfy the requirements of Lewis,
518 U.S. at 349-55. Accordingly, the order of the district court dismissing
Smith’s complaint as legally frivolous is hereby AFFIRMED. Furthermore,
because Smith has not shown “the existence of a reasoned, nonfrivolous argument
on the law and facts in support of the issues raised” in this appeal, we DENY his

-4_

request to proceed in forma pauperis and order him to immediately remit the
entire unpaid balance of the appellate filing fee. Lister v. Dep’t of Treasury, 408
F.3d 1309, 1312 (10th Cir. 2005).
ENTERED FOR THE COURT

Michael R. Murphy
Circuit Judge

-5-

Case l:19-cv-02340-LTB-GPG

Document 13 Filed 11/04/19 USDC Colorado Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Gordon P. Gallagher, United States Magistrate Judge

Civil Action No. 19-cv-02340-LTB-GPG
RODNEY A. SMITH,
Plaintiff,
v.
SUSAN BARKER.
JERRTTROARK
NANETTE THOMAS,
SHAWNA GONZALES,
DIANNA MILENSKI,
STEVEN SALAZAR,
MARSHALL GRIFFITH,
PPMU MR. COOK,
SANDRA BROWN, and
ANTHONY A. DECESARO, et al.
Defendants.
fv

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

This matter comes before the Court on the amended Prisoner Complaint (ECF
No. 9)1 filed pro se by Plaintiff, Rodney A. Smith, on Septembej-16, 2019. The matter
y

has been referred to this Magistrate Judge for recommendation (ECF No. 12.)2

1 “(ECF No. 9)” is an example of the convention I use to identify the docket number assigned to a specific
paper by the Court’s case management and electronic case filing system (CM/ECF). I use this convention
throughout this Recommendation.
2 Be advised that all parties shall have fourteen (14) days after service hereof to serve and file any written
objections in order to obtain reconsideration by the District Judge to whom this case is assigned. Fed. R.
Civ. P. 72(b). The party filing objections must specifically identify those findings or recommendations to
which the objections are being made. The District Court need not consider frivolous, conclusive or
1

A pp

iB

Case l:19-cv-02340-LTB-GPG Document 13 Filed 11/04/19 USDC Colorado Page 2 of 7

The Court must construe the amended Prisoner Complaint and other papers filed
by Mr. Smith liberally because he is not represented by an attorney. See Haines v.
Kerner, 404 U.S. 519, 520-21 (1972); Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir.
1991). However, the Court should not be an advocate for a pro se litigant. See Hall, 935
F.2d at 1110.

TP

,o ,s

The Court has reviewed the filings to date. The Court has considered the entire
case file, the applicable law, and is sufficiently advised in the premises. This Magistrate
Judge respectfully recommends that the amended Prisoner Complaint be dismissed.
I. DISCUSSION
Mr. Smith has been granted leave to proceed In forma pauperis pursuant to 28
U.S.C. § 1915. Therefore, the Court must dismiss any claims in the amended Prisoner
Complaint that are frivolous. See 28 U.S.C. § 1915(e)(2)(B)(i). A legally frivolous claim
is one in which the plaintiff asserts the violation of a legal interest that clearly does not
’

~~ _ >

1.....""

f

exist or asserts facts that do not support an arguabi&ciaim- See Neitzke v. Williams,
490 U.S. 319, 327-28 (1989).
Mr. Smith is a prisoner in the custody of the Colorado Department of Corrections
(“DOC”). He initiated this action by filing pro se a Prisoner Complaint (ECF No. 1)

general objections. A party’s failure to file such written objections to proposed findings and
recommendations contained in this report may bar the party from a de novo determination by the District
Judge of the proposed findings and recommendations. United States v. Raddatz, 447 U.S. 667, 676-83
(1980); 28 U.S.C. § 636(b)(1). Additionally, the failure to file written objections to the proposed findings
and recommendations within fourteen (14) days after being served with a copy may bar the aggrieved
party from appealing the factual findings of the Magistrate Judge that are accepted or adopted by the
District Court. Thomas v. Am, 474 U.S. 140, 155 (1985); Moore v. United States, 950 F.2d 656, 659 (10th
Cir. 1991).
2

Case l:19-cv-02340-LTB-GPG Document 13 Filed 11/04/19 USDC Colorado Page 3 of 7

pursuant to 42 U.S.C. § 1983 complaining about access to legal materials. On August
19, 2019, the Court ordered Mr. Smith to file an amended complaint because it was not
clear who Mr. Smith is asserting his claims against and he failed to allege specific facts
in support of his claims showing he is entitled to relief. As noted above, the amended
Prisoner Complaint was filed on September 16, 2019. Mr. Smith asserts two claims for
relief.
Access to the Courts
Mr. Smith first claims Defendants have violated his constitutional right of access
to the courts by denying him copies of Louisiana statutes. According to Mr. Smith, he
Sleeks to challenge the validity of prior State of Louisiana convictions used to enhance
his current Colorado sentence and he needs copies of the Louisiana statutes to submit
to the state court as exhibits in support of his opening brief. Mr. Smith specifically
alleges that Defendant Susan Barker denied his requests for copies of the Louisiana
statutes on October 28, 2018, and again on November 19, 2018; Defendant Nanette
Thomas refused to assist him in obtaining copies of the Louisiana statutes on
November 13, 2018; Defendant Shawna Gonzales refused to assist him in obtaining
copies of the Louisiana statutes on November 16, 2018; Defendant Jerry Roark failed to
respond to a written request for copies of the Louisiana statutes Mr. Smith handed to
him on November 20, 2018; Defendant PPMU Mr. Cook failed to investigate his
complaints that prison officials were refusing to provide him with copies of the Louisiana
statutes in March 2019; Defendant Dianna Milenski denied his step 1 grievance
regarding the failure to provide him with copies of the Louisiana statutes on May 28,
3

j*.

Case l:19-cv-02340-LTB-GPG

Document 13 Filed 11/04/19 USDC Colorado Page 4 of 7

2019; Defendant Steven Salazar denied his step 2 grievance regarding the failure to
provide him with copies of the Louisiana statutes on June 19, 2019; and Defendants
Marshall Griffith, Sandra Brown, and Anthony A. DeCesaro are responsible for denying
his step 3 grievance regarding the failure to provide him with copies of the Louisiana
statutes in June and July 2019.
It is well-established that inmates have a constitutional right of access to the
courts. See Sounds v. Smith, 430 U.S. 817, 828 (1977). Thus, “states are required to
provide affirmative assistance in the preparation of legal papers in cases involving
constitutional rights and other civil rights actions related to their incarceration.” Simkins
v. Bruce, 406 F.3d 1239, 1242 (10th Cir. 2005) (internal quotation marks omitted). The
affirmative assistance necessary for this type of access to the courts claim is limited to
the preparation and filing of initial pleadings. See Carper v. DeLand, 54 F.3d 613, 617
(

(10th Cir. 1995); see also Vreeland v. Schwartz, 613 F. App’x 679, 683 (10th Cir. 2015)
(distinguishing between two types of constitutional access to the courts claims). In other
circumstances that do not implicate the obligation to provide affirmative assistance, the
Constitution requires only that states “not erect barriers that impede the right of access
of incarcerated persons.” Simkins, 406 F.3d at 1242.
Both types of access to the courts claims “require a showing of actual injury - that
is, that the defendant’s actions hindered the prisoner’s ability to proceed with an actual,
nonfrivolous claim.” Vreeland, 613 F. App’x at 683 (citing Lewis v. Casey, 518 U.S. 343,
351-52 (1996)). Furthermore, as Mr. Smith was advised in the order directing him to file
an amended complain^he uMerMag cause of action that a 11 e q edlyjyj sjg_slis_aa

Case l:19-cv-02340-LTB-GPG Document 13 Filed 11/04/19 USDC Colorado Page 5 of 7

element of an arguable access to the courts claimihaLoiuat^bg,described well enough
to apply the 'nonfrivolous’ test and to show that the ‘arguable’ natur^ltbajicuiedyj,iiq
claim is more than hope.” Christopher v.
Despite the specific instructions provided to Mr. Smitune fails to allege facts that
demonstrate he suffered any actual injury as a
Louisiana statutes he sought to include as exhibits with his op,e,p[nq_brief. More
specifica llP^w^mitihnF^^ describemeunderlyi ng cause of action that allegedly was

lost in order to demonstrate the claim is not frivolous. See /oTHis vague and conclusory
assertions that his current Colorado sentence was enhanced by prior S ta te,..o.t.LQU i si a n a
convictions and that he wanted to submit copies of the Louisj,ana.,statute.s„w.itla.hjs
opening brief are not sufficient to demonstrate_a-Ctu.aLini.urv. Even if the Court assumes
Mr. Smith needed copies of the statutes to formulate a claim in his opening brief, the
access to the courts claim still lacks merit because he does not allege facts describing a
nonfrivolous claim. See Gee v. Pacheco, 627 F.3d 1178, 1191 (10th Cir. 2010)
(prisoner’s allegations that he was unable to research and prepare initial pleadings were
too conclusory to present a plausible claim for denial of access to the courts). As a
result, the Court finds that the access to the courts claim is legally frivolous.
42 U.S.C.§ 1981
Mr. Smith’s second claim is asserted against Ms. Barker pursuant to 42 U.S.C. §
1981. Mr. Smith contends in claim two that Ms. Barker interfered with his contractual
right to the Louisiana statutes because of his race and he specifically identifies two
comments by Ms. Barker as evidence of the alleged racial animus. The first comment

Case l:19-cv-02340-LTB-GPG Document 13 Filed 11/04/19 USDC Colorado Page 6 of 7

was the following response to Mr. Smith’s October 28, 2018 request for the Louisiana
statutes: “Look, I don’t have any kind of access to the information you want, so I guess
you just need to write your ‘PEOPLE’ for it." (ECF No. 9 at p. 17.) The second comment,
which was overheard by Mr. Smith after his second request for copies of the Louisiana
statutes was denied on November 19, 2018, was made by Ms. Barker to another
employee: “I hate when those black guys come in here with a piece of paper and think
I’m obligated to give them something for it like that Mr. Smith guy just did.” (ECF No. 18
at p.18.)
“Section 1981 prohibits racial discrimination in ‘the making, performance,
modification, and termination of contracts, and the enjoyment of all benefits, privileges,
terms, and conditions of the contractual relationship.’” Reynolds v. School Dist. No. 1,
Denver, Colo., 69 F.3d 1523, 1532 (10th Cir. 1995) (quoting 42 U.S.C. § 1981). To
assert a claim under § 1981, Mr. Smith must allege facts demonstrating: “(1) that [he] is
a member of a protected class; (2) that the defendants had the intent to discriminate pn
the basis of race; and (3) that the discrimination interfered with a protected activity as
defined in § 1981.” Hampton v. Dillard Dep’t Stores, Inc., 247 F.3d 1091, 1102 (10th Cir.
2001).
(^fpfrhe § 1981 claimjacks merit because Mr. Smith fail.s.tCLallege±a.ctsJ,h.at
demonstrate the alleged discrimination inteifere(yfl/.itb-a^arQtected activity under § 1981.
Mr_Smith contends heJiasja contractual right to_copjgs^otthe-Loyfs4ana-statutes-ba^ed
on a DQ^JBPJBapaf^w^d^ted SeptembeMJ^^^^OM,^^[3y^fjwJ^h js^a^e^|pythe
amended Prisoner Complaint. (See ECF No. 9-1.) The attached memorandum indicates

Case l:19-cv-02340-LTB-GPG Document 13 Filed 11/04/19 USDC Colorado Page 7 of 7

that Mr. Smith was provided with legal materials while he was housed at the Buena
Vista Correctional Facility on September 11,2014; that the materials would be provided
one time only; and that the DOC is not obligated to replace or copy the materials
provided for any reason. (See id.) Nothing in the memorandum establishes a
contractual right to obtain copies of the Louisiana statutes Mr. Smith sought from prison
officials at the Bent County Correctional Facility in 2018. Therefore, the Court finds that
the § 1981 claim also is legally frivolous.
x II. RECOMMENDATION
For the reasons set forth herein, this Magistrate Judge respectfully
/<•

RECOMMENDS that the amended Prisoner Complaint (ECF No. 9) and the
action badismt

as legally frivolous pursuant to 28 U.S.C. § 1915(e)(2)(B)(i).

DATED this 4th day of November, 2019.
BY THE COURT:

Gordon P. Gallagher
United .States Magistrate Judge

7

Case l:19-cv-02340-LTB-GPG Document 15 Filed 11/27/19 USDC Colorado Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No. 19-cv-02340-LTB-GPG
RODNEY A. SMITH,
Plaintiff,
v.
SUSAN BARKER,
JERRY ROARK,
NANETTE THOMAS,
SHAWNA GONZALES,
DIANNA MILENSKI,
STEVEN SALAZAR,
MARSHALL GRIFFITH,
PPMU MR. COOK,
SANDRA BROWN, and
ANTHONY A. DECESARO, et al.
Defendants.

ORDER

This matter is before the Court on the Recommendation of United States
Magistrate Judge filed November 4, 2019 (ECF No. 13). Plaintiff has filed timely written
objections to the Recommendation (ECF No. 14). The Court has therefore reviewed the
Recommendation de novo in light of the file and record in this case. On de novo review
the Court concludes that the Recommendation is correct. Accordingly, it is
ORDERED that the Recommendation of United States Magistrate Judge (ECF
No. 13) is accepted and adopted. It is

1

/*ij0p^jdU

C-

Case l:19-cv-02340-LTB-GPG Document 15 Filed 11/27/19 USDC Colorado Page 2 of 2

FURTHER ORDERED that the amended Prisoner Complaint (ECF No. 9) and
the action are dismissed as legally frivolous pursuant to 28 U.S.C. § 1915(e)(2)(B)(i). It
is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. The
Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this dismissal
would not be taken in good faith.
DATED: November 27, 2019
BY THE COURT:

s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

CHAPTER

SUBJECT

AR#

Page 5

Offender Legal Services

Legal Access

750-01

EFFECTIVE
11/15/17

/

I

G.

H.
V.

3.

Legal assistants will not transport material by any means on behalf of any offender to another offender or to any other
facility. Legal material will be transported out of the facility only when legal work is being formally assigned or
copied within the Legal Access Program.

4.

Check out and/or removal of all Legal Access Program property is strictly forbidden. All property is to remain within
the confines of the law library and will be marked as DOC property.

5.

Offenders are not allowed to write in, highlight, mark, or in any other way damage or destroy material(s) loaned to
them by the Legal Access Program. This is considered destruction of state property.

6.

Offenders are not allowed to use program computers except to conduct legal research and prepare documents related
to legal matters. Legal Access Program computers are not for use compiling and preparing notes or references.
Citations, references and relevant text may be incorporated in legal documents.

7.

Program DVD/CD players, computers, and laptop computers may be used for the purpose of listening to recordings,
viewing video of court and DOC administrative proceedings, or reviewing discovery.
a.

DVDs, or CDs will be permitted in the law library only for general population offenders when they have been
sent directly from the court, hearing body, or attorney (see below and AR 750-03, Litigation Management).

b.

The legal assistant will coordinate with facility DOC employees to ensure offenders housed in restrictive housing
have access to materials maintained in an electronic format.

c.

Legal assistants will maintain the electronic formatted material and ensure their safety. The offender will be
provided reasonable access to the materials pursuant to AR 750-03, Litigation Management and its disposition,
pursuant to AR 300-06, Searches and Contraband Control.

Offender Access to Legal Materials Contained on DVD. CD. or Any Other Type of Device upon Which Materials May Be
Stored fElectronic/Audio Media")
1.

The legal assistant will make a cursory review of all electronic/audio media to ensure that they are of a legal nature;
do not contain personal communications; personal pictures; maps; victim information; phone numbers, addresses,
dates of birth, social security, SID, or FBI numbers of victims, witnesses or employees; do not divulge personal
information regarding other incarcerated individuals or any other person. Attorneys are responsible to ensure that
they redact the prohibited information from documents intended for their offender client prior to scanning or
recording:

2.

Audio and video tape are not permitted.

3.

CD's and DVD's containing files and/or documents protected with passwords are not permitted.

4.

See AR 750-03, Litigation Management for further information.

Offender participation in telephonic/video hearings shall be in accordance with AR 750-03, Litigation Management.

RESPONSIBILITY
A.

The associate director of the Office of Legal Services or designee shall be responsible for implementing, monitoring
compliance with, reviewing annually, and updating this AR as needed.

B.

Each facility administrative head shall:
1.

Be responsible for maintaining consistency between offender legal access and this AR.

pf

lX O

y

